  09/25/03             THU_13:54 FAX 423 241 3897                OIG                           *--   HQ                  @002

DOxRF 1325.8

E -' (07.90) '


United States Government                                                      Department of Energy

 Memorandum
            DATE:      September 25,     2003

       REPLY TO        IG-36 (A03SR035)                                  Audit Report No.: OAS-L-03-22
        ATTN OF:


       SUBJECT:        Audit of Relocation of Administrative Personnel from A-Area to B-Area at the
                       Savannah River Site

                 TO;   Jeffrey M. Allison, Manager, Savannah River Operations Office


                       INTRODUCTION AND OBJECTIVE

                       In an effort to reduce operating costs at the Savannah River Site, the Savannah River
                       Operations Office (Operations Office) is currently moving most of the Federal and
                       Westinghouse Savannah River Company, LLC (Westinghouse) administrative personnel
                       from Building 703-A to Buildings 730-B and 730-1B. Also, in order to make room for
                       Federal employees moving in, about 330 Westinghouse employees within Building 730-B
                       were relocated and, to accommodate these employees, about 430 additional Westinghouse
                       employees had to be relocated within their current buildings. The Operations Office plans
                       to complete the move by the end of Fiscal Year (FY) 2003 at an estimated cost of
                        $1.3 million.

                        The objective of this audit was to determine whether the relocation of personnel from
                        A-Area to B-Area is cost-effective.

                        CONCLUSIONS AND OBSERVATIONS

                        Neither the Operations Office nor Westinghouse has prepared an adequate cost analysis to
                        demonstrate how much, if any, savings could be achieved. Without an adequate cost
                        analysis, the Department has no assurance that the cost of the move will be recouped within
                        a reasonable period of time.

                        Operations Office management stated that the Department would save about $1.1 million
                        annually through reductions in utility and maintenance costs for Building 703-A.
                        However, the documentary evidence provided by management to support the savings did
                        not take into account all associated costs. For example, the relocation plan does not call for
                        Building 703-A to be completely vacated. Therefore, there will be continuing costs
                        associated with maintaining the partially occupied building. These costs include
                        surveillance and maintenance, fire safety, pest control, and utilities. No analysis has been
                        performed to determine the magnitude of these continuing costs.

                        Also, management did not estimate the full cost of relocating employees from one building
                        to another. For example, some costs not included were services of packers and movers;
                        removal and reinstallation of communications and computer equipment; reconfiguration of
09/25/03   THU 13:54 FAX 423 241 3897                OIG                            •*- HQ                  I 003




           walls and offices; modifications to lighting, heating, venting, and air conditioning systems;
           and reductions in worker productivity during relocation activities.

           SCOPE AND METHODOLOGY

           The audit was performed between April 15 and June 3, 2003, at the Savannah River Site in
           Aiken, South Carolina. The scope of the audit included a review of planning and funding
           for the relocation of administrative personnel from Building 703-A to Buildings 730-B and
           730-1B between March 1 and October 1, 2003.

           To accomplish the audit objective, we verified that a cost-benefit analysis had not been
           performed; reviewed the Department's estimate of utility and maintenance cost savings to
           be realized by vacating a portion of Building 703-A; and reviewed the results of a
           Westinghouse study, entitled Alternative Analysis for the A/B Area Option Study, published
           in December 2000.

           The audit was conducted in accordance with generally accepted Government auditing
           standards for performance audits and included tests of internal controls and compliance
           with laws and regulations to the extent necessary to satisfy the audit objective.
           Accordingly, we assessed internal controls and performance measures established under the
           Government Performanceand Results Act of 1993 related to footprint reduction. Because
           our review was limited, it would not necessarily have disclosed all internal control
           deficiencies that may have existed at the time of our audit. We did not rely on computer
           generated data during this audit.

            We discussed the audit results with the Acting Deputy Manager for Business, Savannah
            River Operations Office, on August 27, 2003. Since no formal recommendations are being
            made in this letter report, a formal response is not required. However, to ensure that future
            relocations are cost-effective, we suggest that your office prepare cost-benefit analyses to
            support relocation plans prior to execution. We appreciate the cooperation of your staff
            throughout the audit.




                                                              erry .   rendlinger, Directo
                                                            Envi'nmental Audits Division
                                                            Office of Inspector General

            cc: Assistant Secretary for Environmental Management
                Team Leader, Audit Liaison Team, ME-2
                Audit Liaison, Savannah River Operations Office




                                                     2
09/25/03   THU 13:54 FAX 423 241 3897               OIG                          -+4   HQ                0[004

                                                          IG Report No. OAS-L-03-22


                                   CUSTOMER RESPONSE FORM

            The Office of Inspector General has a continuing interest in improving
            the usefulness of its products. We wish to make our reports as responsive as possible to
            our customers' requirements, and therefore ask that you consider sharing your thoughts
            with us. On the back of this form, you may suggest improvements to enhance the
            effectiveness of future reports. Please include answers to the following questions if they
            are applicable to you:

             1.     What additional background information about the selection,
                    scheduling, scope, or procedures of the audit or inspection would have been
                    helpful to the reader in understanding this report'?

             2.     What additional information related to findings and recommenda-
                    tions could have been included in this report to assist management in
                    implementing corrective actions?

             3.     What format, stylistic, or organizational changes might have made
                    this report's overall message more clear to the reader?

             4.     What additional actions could the Office of Inspector General have
                    taken on the issues discussed in this report which would have been helpful?

             Please include your name and telephone number so that we may contact you
             should we have any questions about your comments.


             Name                                             Date

             Telephone                                        Organization


             When you have completed this form, you may telefax it to the Office of
             Inspector General at (202) 586-0948, or you may mail it to:

                                    Office of Inspector General (IG-.1)
                                    Department of Energy
                                    Washington, D.C. 20585
                                    ATTN: Customer Relations

             If you wish to discuss this report or your comments with a staff member
             of the Office of Inspector General, please contact Wilma Slaughter at (202) 586-1924.
     .09/25/03        THU 13:55 FAX 423 241 3897            OIG                          -*-, HQ                [006
DOE F 1325.B
     (4/93)



United States Government                                                             Department of Energy

memorandum
      DATE:     September 25,     2003

 REPLY TO
  ATTN TO:      10-36 (A03SR035)

  SUBJECT:      Audit Report on "Relocation of Administrative Personnel from A-Area to B-Area at the
                Savannah River Site"

          TO:   Team Leader, Audit Liaison Team (ME-2.1)


                Attached is the subject report. Since no recommendations were made, there is no need to track
                the audit in the Department's Audit Report Tracking System.

                We appreciate your cooperation. If you have any questions, please contact Phillip Beckett at
                865-576-7400.




                                                     C(e          T     L. Brendlinger, Direc r
                                                                   Sironmental Audits Division
                                                                  Office of Inspector General

                Attachments

                cc:     Assistant Secretary, Office of Environmental Management
                        Manager, Savannah River Operations Office
                        Audit Liaison, Savannah River Operations Office
  09/25/03             THU 13:54 FAX 423 241 3897                OIG                           -r-.-   HQ                     [005
DOE F 1325.8
   (8.89)
 EFo (0-9)0)
                                                                                                            Department of Encrgy
United States Government                                                                                    Departmnnt ofEncrgy



memorandum
               DATE:   September 25,     2003
         EPILY
            TO:        IG-36 (A03SR035)

        SUBJEcT:       Final Report Package for "Relocation of Administrative Personnel from A-Area to
                       B-Area at the Savannah River Site"

                 TO:   Linda J. Snider, Director for Planning and Administration (DPA)

                       Attached is the required final report package on the subject audit. The pertinent details are:
                         1. Staffdays:      Programmed         n/a             Actual    n/a


                         2. Elapsed days:       Programmed     74              Actual    163


                         3. Names of OIG audit staff:
                                 Assistant Regional Manager:        Phillip D. Beckett
                                 Team Leader (Audit-Control-Point): Vincent V. LaBon
                                 Auditor-in-Charge:                 Zaddie R. Wilkins
                                 Audit Staff:

                         4.   This report has been discussed with OIG Investigations and Inspections personnel.
                                 Kevin P. Childress, Investigations, April 28, 2003
                                 Charles B. Jackson, Inspections, April 25, 2003
                         5. Matters to be brought to attention of the IG or AIGA: None




                                                                Ter 7 L. Brendlinger,Direc r
                                                                Envonmental Audits Division
                                                                O ice of Inspector General

                           Attachments:
                           1. Final Report (3)
                           2. Monetary Impact Report
                           3. IGDBMS File Printout
09/25/03         THU 13. 55 FAX 4.23 241 3897                        OIG                                        HQ
                                                                                                         ~-*                                   [ 007




                                MONETARY IMPACT OF REPORT NO.: OAS-L-03-22


      1. Title of Audit:              Relocation of Administra5tive Personnel from A-Area to B-Area at the
                                      Savannah River Site

      2. Division:                    EAD/SRA

      3. Project No.:                 A03SR035

      4. Type of Audit:
                 Financial:                                              Performance:       X
                    Financial Statement                                    Economy and Efficiency
                    Financial Related                                      Program Results
                 Other (specify type):
                                                                                                        at this
  5. Please report monetary savings identified in the report. If unable to quantify monetary savings
                                                                                                   section
  time, please identify any potential future impact on audited activities/locations in the remarks
  below.
                                                                                                         MGT.          POTENTIAL
                                                BETTER USED                 QUESTIONED COSTS           POSITION         BUDGET
                       FINDING
                                                                                                                          IMPACT
                                                       Recurring
                               (B)              (c3       (D)         (F)           (F)        (G)        (H)                 (1)
           (A)                                                                                         C-Concur            Y-Ycs
                              Title             One    Amount      Questioned   Unsupported    Total
                                                Time      Per       Portion       Portion              N-Noncon             N=No
                                                         Your                                          U-Undcc

                   This row will expand
                   uutomnaically from top to
                   bottom as data is entered.



                                                                                                                ;
           TOTALS--ALL FINDINGS                                                                         ::::      :: '...:.::.::'::.:
                                                                                                                :;::                    :'::



       6. Remarks: In the absence of a cost-benefit study for the relocation of administrative personnel
                   from Building 703-A to the B-Area Complex, and the partial closure of Building
                              703A, it is uncertain if the current plan is cost-effective.

        7. Contractor:                                             10. Approvals:
        8. Contract No.:                                           Division Director/Date:  Te                 L. Brendliner
        9. Task Order No.:                                         Technical Advisor & Date                        /.   ,
    09/25/03     THU 13:55 FAX 423                  241 3897               OIG                                -*     HQ                    [008
                                             Audit Project               Office Summary (APS)
                                                                                                                                      Page 1
aport run on:,                     September 25, 2003 2:31 PM


 Audit#: A03SR035                Ofc:        SRA     Title: FOOTPRINT REDUCTION AT SAVANNAH                   RIVER SITE



                                                    Planned    End of Survey     Revised        Actual
                                                   - - -------------       ---------------           0
                                                                                        --------------

                                                   14-APR-03                                   15-APR-03           15-APR-03
  Entrance Conference:.....
  Survey:..... .... .........
  Draft Report:............                        23-MAY-03
                                                   27-JUN-03                                   19-SEP-03           25-SEP-03        (R)
  Completed (With Report):.
  ------------ Elapsed Days:                              74                                                              163
                                                                                                      lap. Less Susp:

  Date Suspended;                                                 Date Terminated:
  Date Reactivated:                                                Date Cancelled:
  DaysSuspended(Cur/Tot)                              (          ) Report Number:              OAS-L-03-22

  Rpt Title:Rt TitleReport                                                   Type:             LTR   LETTER REPORT
                                                                        AT THE SAVANNAH
  AUDIT OF RELOCATION OF ADMINISTRATIVE PERSONNEL FROM A-AREA TO B-AREA
  RIVER SITE




  Class:       PER      PERFORMANCE
  Program:     OTH      OTHER
   gtChall: 032         ENVIRONMENTAL CLEANU                                             AD:   327    BECKETT
   Site:       SSA       SINGLE-SITE AUDIT                                         AIC:        700    WILKINS
  SecMiSS:     CMT      CORPORATE MANAGEMENT                                Team Ldr:          180    LABON
  PresInit: SHC          STRATEGIC MANAGEMENT                               Tech Adv:          432    GAMAGE



       Task No:
       Task Order Dt:                                             CO Tech. Rep:
       Orig Auth Hrs:                                                 Orig Auth Costs:
       Current Auth:                                                  Current Auth Cost:
       Tot Acti IPR Hr:                                               Tot Actl Cost:




                     ____Co__tName__Nuda_.                                  Last   Da.                                          .



                     BOLTON, II, F                              0.1         06-SEP-03
                     LABON, V                                  14.5         06-SEP-03
                     WILKINS, Z                                76.8         06-SEP-03
                      Total:                                   91.4




                     A-AREA
    09/25/03    THU 13:55 FAX_423 241 3897         OIG               4-.   HQ        [009
                               Audit Project Office Summary (APS)
                                                                                Page 3

sport run On:             September 25, 2003 2:31 PM




 udit No:      A03SR035                History Date:     25-SEP-03

 History Text:
 pB/ENTERED COMPLETED WITH REPORT DATE.
     /
09       25/03
            v    THU 13:56 FAX 423 241 3897                OIG                            -++   HQ           ~i010




                                 AUDIT DATABASE INFORAMTION SHEET


          Project No.:          A03SR035

           1. Title of Audit;    "Footprint Reduction at the Savannah River Site"

           2. Report No./Date       0PL& k            1Z6o05
           3. Management Challenge Area:                     032 and 120

           4. Presidential Mgmt Initiative:                    N/A

           5. Secretary Priority/Initiative:                   N/A

           6. Program Code:        MA

           7. Location/Sites:      SRO

            8. Finding Summary: None
                                                                                          Chief Financial
            We discussed the audit results with the Savannah River Operations Office,
                                                      no formal recommendations   are being   made in this
            SOfficer (DOE-SR), on •'nce
                                                                                                      we
            letter report, a formal response is not required. However, to ensure cost effectiveness,
                                                                                  activities, to prepare a
            suggested that the DOE-SR prior to executing any future movement
                                                                                           move would be
            cost-benefit analysis to support the movement plan in order to show that the
            cost effective.

            9. Keywords; Accelerate                                  Federal
                         Administrative                              Five Options
                         Analysis                                    GAO
                         A-Area                                      Recoup
                         B-Area                                      Reduce/Reduction
                         Cost                                        Study
                         EEffective/ffectiveness                     Savings
                         Closure                                     Savannah River Operations Office
                         DOE                                         SRS
                         DOE-SR                                      Top-to-Bottom Review
                         Environmental Management (EM)               Westingbouse/WSRC
09/25/03      THU 13:56 FAX 423 241 3897                         OIG                                  ,4- HQ                  loil




                                  POTENTIALLY SENSITIVE INFORMATION
                                                                                           If the information is detailed
           The following is a list of information considered to be potentially sensitive. to  U.S. national security,
           to such an extent that it would cause or could potentially cause damage
                                                                                Therefore, when preparing your
           citizens, or property, it cannot be included in our public reports.
                                                           whether the report contains potentially sensitive
           reports be sure to use this checklist to determine
           information.
                                                                                                        YES         NO
                          CATEGORIES/TYPES OF INFORMATION
           Facilities
            > Detailed description and location of facilities to include maps,
              written directions, drawings, blue prints, photographs and the like
                                                                                                                     X
            > Detailed descriptions and location of storage facilities for nuclear or
              other hazardous materials
                                                                                                                      X
            > Detailed descriptions and location of personnel or facility support
               systems (e.g. water supply, electrical supply systems,
               communications systems, emergency response
               personnel/equipment)
                                                                                                                      X.
            > Detailed descriptions and locations of computer systems used to
               process, store, and transmit sensitive information.
                                                                                                                      X
             SEnvironmental Impact Statements that provide the consequences for
               what is being studied.
                                                                            not been                                  X
            > Any detailed information pertaining to other sites that has
                reviewed/approved by the   other site.

             Materials
                                                                      nuclear,                                         X
             > Form and quantity of hazardous materials, (chemical,
                biological)
                                                                                                                       X
             > Vulnerabilities of materials to unauthorized access or destruction.
             > Consequences of release of hazardous materials                                                          X
                                                                                                                       X
             > Detailed transportation related information (routes, maps, shipping
               means, containers).

             Security/Safety
                    Detailed plans, procedures, communications, reaction times,                                        X
             >
                capabilities that would allow someone to determine vulnerabilities
                  of the site.
                                                                                                                         X
              >      Specific assessments, exercise results, evaluations for a
                 particular site
              ->     Specific personnel data identifying security/safety personnel                                        X
              >         Specific equipment and its potential uses                                                         X




                                                                       1
S09/25/0 3       THU .13:56 FAX 423 241 3897                  OIG                            , HQ
                                                                                             .-          0012




                                     POTENTIALLY SENSITIVE INFORMATION


         Assessments
         >      Site specific vulnerability assessments                                             X
             >        Site specific safety assessments/anal sis                                     X
             >        Site specific risk analyses                                                   X
             >        Specific hazardous assessments (Dispersion models and                         X
                  analyses, accident analyses or site hazards)

             Personnel
                                                                                                    X
             >     Specific organization charts or phone lists identifying senior
                  management/key personnel
                                                                                                    X
             >            Specific personal data to include travel plans, meetings and the
                   like
                          Specific training materials that include sensitive information            X_
             >

             Programs-
                                                                                                    X
                > Detailed information identifying sensitive programs, special
                          proects, SAPs, WFO
                                                                                                    X
                   > Reports detailing specific activities and/or results from
                      roams and projects
                   > information pertaining to specific programs at other                           X
                     facilities/sites that has not been cleared with the other sites for
                     publication on a publicly accessible web site




                                                                    2
